NO.
_______________
SUPREME COURT OF THE UNITED STATES
_______________
OUTDOOR AMUSEMENT BUSINESS ASSOCIATION,
INC.; MARYLAND STATE SHOWMEN'S ASSOCIATION,
INC.; THE SMALL AND SEASONAL BUSINESS LEGAL
CENTER; LASTING IMPRESSIONS LANDSCAPE
CONTRACTORS, INC.; THREE SEASONS LANDSCAPE
CONTRACTING SERVICES, INC.; NEW CASTLE LAWN
& LANDSCAPE, INC.,
Petitioners
v.
DEPARTMENT OF HOMELAND SECURITY; UNITED
STATES CITIZENSHIP & IMMIGRATION SERVICES;
DEPARTMENT OF LABOR; EMPLOYMENT &
TRAINING ADMINISTRATION; WAGE & HOUR
DIVISION,
Respondents
_______________
On Petition for Writ of Certiorari to the United States
Court Of Appeals for the Fourth Circuit
_______________
PETITION FOR WRIT OF CERTIORARI
_______________
R. Wayne Pierce, Esq.

Leon R. Sequeira, Esq.

The Pierce Law Firm, LLC
Counsel of Record
133 Defense Hwy, Suite 201
616 South Adams Street
Annapolis, Maryland 21401
Arlington, Virginia 22204
410-573-9955
(202) 255-9023
wpierce@adventurelaw.com
lsequeira@lrs-law.com
Counsel for Petitioners

QUESTION PRESENTED
With exceptions not relevant hereto, Congress
has expressly bestowed all "administration and
enforcement" functions under the Immigration and
Nationality Act, 8 U.S.C. §§1101 et seq., including
rulemaking and adjudication for the admission of
temporary, non-agricultural workers under the H-2B
visa program, exclusively on the Secretary of
Homeland Security.
Id. §§ 1101(a)(15)(H)(ii)(b),
1103(a)(1), (3), and 1184(a)(1), (c)(1). The Secretary
adjudicates
employer
H-2B
petitions
"after
consultation with appropriate agencies of the
Government."
Id. § 1184(c)(1).
The question
presented is:
Whether Congress, consistent with the
nondelegation doctrine and clear-statement rule,
impliedly authorized the Secretary of Labor
individually to promulgate legislative rules for the
admission of H-2B workers and adjudicate H-2B
labor certifications.

ii

PARTIES TO THE PROCEEDINGS BELOW
Petitioners Outdoor Amusement Business
Association, Inc., Maryland State Showmen's
Association, Inc., The Small and Seasonal Business
Legal Center, Lasting Impressions Landscape
Contractors, Inc., Three Seasons Landscape
Contracting Services, Inc., and New Castle Lawn &
Landscape, Inc., were plaintiffs in the district court
and appellants in the court of appeals.
Respondents Department Of Homeland
Security, United States Citizenship & Immigration
Services, Department of Labor, Employment &
Training Administration, and Wage & Hour Division
were defendants in the district court and appellees in
the court of appeals.
Margharita Kuri, Timothy King, Andrew
Mitschell, Henry Wojdylo, Ronald Nyenhuis, Shirley
Harmon, Antonio Rivera Martinez, Comité de Apoyo
a los Trabajadores Agrícolas, Pineros y Campesinos
Unidos del Noroeste, and Northwest Forest Workers
Center were intervenors in the district court and
court of appeals.

iii

CORPORATE DISCLOSURE STATEMENT
Petitioners Outdoor Amusement Business
Association, Inc., Maryland State Showmen's
Association, Inc., The Small and Seasonal Business
Legal Center, Lasting Impressions Landscape
Contractors, Inc., Three Seasons Landscape
Contracting Services, Inc., and New Castle Lawn &
Landscape, Inc., hereby certify that each has no
parent corporation and that no public company holds
10% or more of their stock.

iv

STATEMENT OF RELATED PROCEEDINGS
There are no other proceedings arising out of
the same trial court proceedings.

v

TABLE OF CONTENTS
Page
Table of Authorities

viii

Opinions Below

4

Statement of Jurisdiction

4

Constitutional and Statutory Provisions
Involved

4

Statement of Case

5

I. Statutory Framework

5

II. The 2015 DOL Rule

7

III. Trial Court Proceedings

8

IV. Appellate Court Proceedings

9

Reasons for Granting the Petition

11

I. The Courts of Appeals Are Divided Over
Whether §1184(c)(1) authorizes the
Secretary of Labor to Issue H-2B
Legislative Rules and Adjudications

12

II. The Fourth Circuit's Interpretation of
§1184(c)(1) As Impliedly Authorizing the
Secretary of Labor's Legislative Rules
and Adjudications Is Incorrect

14

A. The Text of §1184(c)(1) Does Not
15
Authorize the Secretary of Labor to Issue
H-2B Legislative Rules and Adjudications
B. Allowing the Secretary of Labor to
Issue H-2B Legislative Rules and
Conduct Adjudications Defies the INA's
vi

16

Statutory Scheme
C. The Fourth Circuit's Interpretation of 22
§1184(c)(1) Is Precluded by Canons,
Clear-Statement Rules and Presumptions
D. Mead Cannot Sustain the Fourth
Circuit's Interpretation of §1184(c)(1)

28

E. The Erroneous Departure from
§1184(c)(1)'s Text Has Spawned
Additional Circuit Conflicts

31

III. The Issue Is Important and Recurring

33

IV. This Case Presents an Ideal Vehicle for
Resolving the Conflict

35

Conclusion

37

Appendix A – Court of Appeals Opinion (Dec.
18, 2020)

1a

Appendix B – Court of Appeals Order Denying
Rehearing En Banc (Feb. 16, 2021)

44a

Appendix C – District Court Opinion (Oct. 11,
2018)

46a

Appendix D – Relevant Constitutional and
Statutory Provisions

98a

vii

TABLE OF AUTHORITIES
Cases
A.F.L.-C.I.O. v. Dole, 923 F.2d 182, 187 (D.C.
Cir. 1991)

Page
7

American Bus Ass'n v. Slater, 231 F.3d 1, 9
(D.C. Cir. 2000)(Sentelle, J., concurring)

28

Bayou Lawn & Landscape Servs. v. Secretary of 2
Labor, 713 F.3d 1080 (11th Cir. 2013)
Billings v. Sitner, 228 F. 315, 317-19 (1st Cir.
1915)

21

Bowen v. Georgetown Univ. Hosp., 488 U.S. 204, 23
208 (1988)
Brown v. Gardner, 513 U.S. 115, 118 (1994)

16

Chevron U.S.A., Inc. v. Natural Resources
24
Defense Council, Inc., 467 U.S. 837, 845 (1984)
City of Arlington v. FCC, 569 U.S. 290, 308
(2013) (same)

29

Connecticut Nat'l Bank v. Germain, 503 U.S.
249, 254 (1992)

15

DeBartolo Corp. v. Florida Gulf Coast Bldg.
Council, 485 U.S. 568, 575 (1988)

22

EEOC v. Arabian Am. Oil Co., 499 U.S. 244,
250, 258 (2001)

26

viii

Cases
Encino Motorcars, LLC v. Navarro, 136 S. Ct.
2117, 2125 (2016)

Page
25

Food & Drug Admin. v. Brown & Williamson
Tobacco Corp., 529 U.S. 120, 160 (2000)

17

G.H. Daniels III & Assocs., Inc. v. Perez, 626 F. App’x 3
205 (10th Cir. 2015)
Gonzales v. Oregon, 546 U.S. 243, 258 (2006)

23

INS v. St. Cyr. 533 U.S. 289, 320 n. 45(2001)

26

Industrial Union Dep't v. American Petroleum
Inst., 448 U.S. 607, 646 (1980)

22

Louisiana Forestry Ass'n Inc. v. Secretary of Labor, 745
F.3d 653 (3d Cir. 2014)

3

Louisiana Pub. Serv. Comm'n v. FCC, 476 U.S. 23
355, 374 (1986)
MCI Telecomm S. Corp. v. AT&T Co., 512 U.S. 27
218, 231 (1991)
Martin v. Occupational Safety & Health Review 25
Comm'n, 499 U.S. 144, 156-57 (1991)
Miller v. United States, 294 U.S. 435, 440 (1935) 18
Mistretta v. United States, 488 U.S. 361, 371
(1989)

23

Morrison v. National Australia Bank Ltd., 561 26
ix

Cases

Page

U.S. 247, 255 (2010)
Outdoor Amusement Bus. Ass'n, Inc. v. DHS,
334 F. Supp. 3d 697 (D. Md. 2018)

9

Outdoor Amusement Bus. Ass'n, Inc. v.
Department of Homeland Sec., 983 F.3d 671,
684 (4th Cir. 2020)

3

PennEast Pipeline Co., LLC v. New Jersey, No. 30
19-1039, slip op. at *18 (Sup. Ct. June 29, 2021)
Ragsdale v. Wolverine World Wide, Inc., 535
U.S. 81, 91 (2002)

18

Rust v. Sullivan, 500 U.S. 173, 191 (1991)

22

Schechter Poultry Corp. v. United States, 295
U.S. 495, 530 (1935)

23

Secretary of Labor v. Farino, 490 F.2d 885, 891- 21
92 (7th Cir. 1973)
Securities & Exch. Comm'n v. Chenery Corp.,
318 U.S. 80, 87-89, 94-95 (1943)

25

South Carolina Med. Ass'n v. Thompson, 327
F.3d 346, 351 (4th Cir. 2003)

23

Texas v. United States, 809 F.3d 134, 180-81 (5th 27
Cir. 2015)
U.S. Telecom Ass'n v. FCC, 855 F.3d 381, 419
(D.C. Cir. 2017)(Kavanaugh, J., dissenting)
x

27

Cases

Page

Union Pac. R.R. Co. v. Surface Transp. Bd., 863 28
F.3d 816, 826 (8th Cir. 2017)
United States v. Mead Corp., 533 U.S. 218, 229 3
(2001)
Utility Air Regulatory Group v. Environmental 15
Protection Agency, 134 S. Ct. 2437, 2444 (2014)
Washington v. Roberge, 278 U.S. 116, 122-23
(1928)

23

Whitman v. American Trucking Ass'n, Inc., 531 19
U.S. 457, 472 (2001)
Constitution
U.S. Const. art. I, §1

Page

Statute and Rules
8 C.F.R. §214.2(h)

Page
8

20 C.F.R. §655.161(a)

18

20 C.F.R. §§655.510(d)

19

8 C.F.R. §214.2(h)(6)(iii)(A)

20

20 C.F.R. §655.731-.732

18

20 C.F.R. §655.1112(c)(2)

18

20 C.F.R. §656.2(c)(3)

18

xi

Statute and Rules
76 Fed. Reg. 37686, 67686, 37688 (June 28,
2011)

Page
8

77 Fed.Reg 10038, 10053 (Feb. 21, 2012)

8

80 Fed. Reg. 24042, 24043 (Apr. 29, 2015)

3

81 Fed.Reg. 42983, 42984 n.1 (July 1, 2016) 8
8 U.S.C. §§1101(a)(15)(H)(ii)(b)

1

8 U.S.C. §§1103(a)(1)

1

8 U.S.C. §§1103(a)(3)

1

8 U.S.C. §1182(a)(5)(A)(i)

19

8 U.S.C. §§1184(a)(1)

2

8 U.S.C. §§1184(c)(1)

passim.

8 U.S.C. §1188(a)(2) &(g)

20

8 U.S.C. §1356(m), (t)&(u)

20

8 U.S.C. §1381

8

28 U.S.C. §1254(1)

4

Immigration and Nationality Act of 1952,
Pub. L. No. 82-414, 66 Stat. 163 (1952)

5

Other Materials
111 Cong. Rec. 21805, 21805, 21806 (Aug. 25,
xii

Page
16

Other Materials

Page

1965)
Black’s Law Dictionary 536 (4th ed. 1951)

15

Bressman, Schechter Poultry at the Millennium: 23
A Delegation Doctrine for the Administrative
State, 109 Yale L.J. 1399, 1416-17 (2000)
The Concise Oxford Dictionary 327 (4th ed.
1951)

16

Jody Freeman & Jim Rossi, Agency
21
Coordination and Shared Regulatory Space, 125
Harv. L. Rev. 1131, 1157-60 (2012)
H.R. Rep. No. 82-1365, at 52 (1952)

6

Hearings on Migratory Labor – Part I, 82d
Cong., at 51 (1952)

6

Gersen, Overlapping and Underlapping
28
Jurisdiction in Administrative Law, 2006 S. Ct.
Rev. 201, 222-25
Abbe R. Gluck & Lisa Schultz Bressman,
20
Statutory Interpretation From the Inside – An
Empirical Study of Congressional Drafting,
Delegation, and the Canons: Part I, 65 Stan. L.
Rev. 901, 1007 (2013)
INS, Annual Report of the INS 31 (1953)

7

INS Comm'r Argyle R. Mackey, The New
Immigration and Nationality Act and

6

xiii

Other Materials
Regulations, 1 I.&N. Rptr. 29, 29 (Jan., 1953)

Page

President's Comm’n on Immigration &
6
Naturalization, 82d Cong., Hearings before the
President's Commission on Immigration and
Naturalization 1380, 1383 (1952)
Revision of Immigration, Naturalization, and
Nationality Laws: Joint Hearings on S. 716,
H.R. 2379, and H.R. 2816, 82nd Cong., at 661,
664-65 (1951)

6

S. Rep. No. 82-1137, at 11, 13, 20 (1952)

6

Schoenbrod, Power Without Responsibility: How 27
Congress Abuses the People Through Delegation
9 (1993)
Stack, The Constitutional Foundations of
25
Chenery, 116 Yale L.J. 952, 992, 996-97 (2007)
Sunstein, Chevron Step Zero, 92 Va. L. Rev.
187, 191 (2006)

22

Sunstein, Nondelegation Canons, 67 U. Chi. L. 26
Rev. 315, 339 (2000)

xiv

SUPREME COURT OF THE UNITED STATES
_______________
OUTDOOR AMUSEMENT BUSINESS ASSOCIATION,
INC.; MARYLAND STATE SHOWMEN'S ASSOCIATION,
INC.; THE SMALL AND SEASONAL BUSINESS LEGAL
CENTER; LASTING IMPRESSIONS LANDSCAPE
CONTRACTORS, INC.; THREE SEASONS LANDSCAPE
CONTRACTING SERVICES, INC.; NEW CASTLE LAWN
& LANDSCAPE, INC.,
Petitioners
v.
DEPARTMENT OF HOMELAND SECURITY; UNITED
STATES CITIZENSHIP & IMMIGRATION SERVICES;
DEPARTMENT OF LABOR; EMPLOYMENT &
TRAINING ADMINISTRATION; WAGE & HOUR
DIVISION,
Respondents
_______________
On Petition for Writ of Certiorari to the United States
Court Of Appeals for the Fourth Circuit
_______________
PETITION FOR WRIT OF CERTIORARI
_______________

With exceptions not relevant hereto, Congress
expressly bestowed all "administration and
enforcement" functions under the Immigration and
Nationality
Act,
including
rulemaking
and
adjudication for the admission of temporary, nonagricultural workers under the H-2B visa program,
on the Secretary of Homeland Security. 8 U.S.C.
§§1101(a)(15)(H)(ii)(b),
1103(a)(1),
(3),
and
1

1184(a)(1), (c)(1). By its terms, the INA authorizes
the Secretary to adjudicate employer H-2B petitions
"after consultation with appropriate agencies of the
Government." Id. §1184(c)(1). This case concerns
whether that provision, by authorizing the Secretary
to consult with unnamed agencies before
adjudicating, also authorizes those consultants, in
this case the Secretary of Labor, who are chosen
solely by the Secretary, to promulgate legislative
rules concerning the admission of H-2B workers, and
adjudicate H-2B labor certifications.
There is a square circuit split on this issue.
The Eleventh Circuit was the first appellate court to
address the Secretary of Labor's independent
authority under the H-2B program. See Bayou Lawn
& Landscape Servs. v. Secretary of Labor, 713 F.3d
1080 (11th Cir. 2013). The Eleventh Circuit
incisively determined that Congress failed to extend
rulemaking "to DOL," and that this "congressional
silence" was out of keeping with Chevron deference
and likely the Constitution. Id. at 1084, 1085. As
the Eleventh Circuit found, statutory interpretation
must comply with any conditions or limitations
placed by Congress. The statute provides that DHS
"determines," and all rulemaking and adjudicative
functions are solely extended to DHS. For this
reason, the court declined to find DOL possessed
implicit rulemaking power that Congress had
explicitly granted to another agency. Id. at 1085 &
n. 5.
The Fourth Circuit below rejected this view.
The panel noted that implied authority arises when
"'the agency's generally conferred authority and
other statutory circumstances'" establish that
"'Congress would expect the agency to be able to
2

speak with the force of law when it addresses
ambiguity in the statute ….'" Outdoor Amusement
Bus. Ass'n, Inc. v. Department of Homeland Sec., 983
F.3d 671, 684 (4th Cir. 2020)(quoting United States
v. Mead Corp., 533 U.S. 218, 229 (2001)). The
Fourth Circuit then pointed to potential ambiguity in
the immigration statute and other visa provisions, in
which Congress had expressly designated DOL's role,
and extended Chevron deference to DOL's claimed
authority. Id. at 685-86.
The issue of the Secretary of Labor's
independent rulemaking and adjudicative authority
is important and recurring.
More than 4000
employers participate in the H-2B program each year
and DOL has estimated the employers' costs to
comply with DOL's regulations are $1.2 billion over
10 years, or more than $30,000 per day. See 80 Fed.
Reg. 24042, 24105, 24180-81 (Apr. 29, 2015). The
question of the Secretary of Labor's authority in the
H-2B program was also raised in, but was not
decided, in Louisiana Forestry Ass'n Inc. v. Secretary of
Labor, 745 F.3d 653 (3d Cir. 2014) and G.H. Daniels III &
Assocs., Inc. v. Perez, 626 F. App’x 205 (10th Cir. 2015).
Despite the unsettled nature of its authority, DOL is now
using the Fourth Circuit's decision to support its view that
it has unquestioned authority. 86 Fed. Reg. 28198, 28202
nn. 25-26 (May 25, 2021).
This case provides an ideal vehicle to address
the issue of whether an agency may exercise
legislative rulemaking authority in the absence of
congressional authorization and when Congress has
expressly conferred rulemaking authority on another
agency. Under the nondelegation doctrine and a
related clear-statement rule, it is Congress's
responsibility to clearly indicate those agencies that
3

it has selected to carry out its designated policies; it
did so by choosing the Secretary of Homeland
Security exclusively.
Once Congress chose its
selected instrumentality, there was no basis for
extending Chevron deference to unnamed agencies.
This Court should grant the petition for a writ of
certiorari and resolve the circuit split over the proper
interpretation of §1184(c)(1) and whether an agency
may exercise legislative rulemaking authority in the
absence of congressional authorization and when
Congress has expressly conferred rulemaking
authority on another agency.
OPINIONS BELOW
The court of appeals' opinion (Appx, infra, 1a43a) is reported at 983 F.3d 671. The district court's
opinion (Appx, infra, 46a-97a) is reported at 334 F.
Supp. 3d 697.
STATEMENT OF JURISDICTION
The court of appeals entered judgment (Appx,
infra, 1a-43a) on December 18, 2020, and denied re
hearing (Appx, infra, 44a-45a) on February 16, 2021.
This case was subject to an automatic 60-day
extension under [citation], making this petition due
on July 16, 2021. This Court has jurisdiction under
28 U.S.C. §1254(1).
CONSTITUTIONAL AND STATUTORY
PROVISIONS INVOLVED

4

Relevant
constitutional
and
statutory
provisions are set forth in the Appendix (Appx, infra,
98a).
STATEMENT OF CASE
Petitioners are a group of individual
employers and related trade associations relying
upon the H-2B temporary, non-agricultural visa
program to seasonally supplement employer
workforces. J.A. 31-34. Petitioners sued DOL and
DHS for issuing, without statutory authority, the
2015 DOL Rule. J.A. 34-42.
I. STATUTORY FRAMEWORK AND HISTORY
The H-2B program originated in 1952 when
Congress passed the Immigration and Nationality
Act and created the H-2 visa for both temporary
agricultural and non-agricultural employment.
Immigration and Nationality Act of 1952, Pub. L. No.
82-414, 66 Stat. 163 (1952). There were numerous
contemporaneous attempts to extend a role to the
Department of Labor to regulate temporary labor,
each of which failed.
During hearings on the
proposed legislation, American Federation of Labor's
representative testified that DOL "should be
required to make a thorough survey of the labor
market, certify the need for the importation of
foreign labor, and establish regulations governing
the importation and use of such labor." Revision of
Immigration, Naturalization, and Nationality Laws:
Joint Hearings on S. 716, H.R. 2379, and H.R. 2816,
82nd Cong., at 661, 664-65 (1951) (statement of
Walter J. Mason). Although the Senate Committee
5

on the Judiciary included a role for DOL for
immigrants, it rejected DOL's role as "unnecessary"
when applied to "Nonimmigrant aliens [who] were
granted temporary admission only." S. Rep. No. 821137, at 11, 13, 20 (1952) (emphasis added).
The opposition to the McCarran bill was led by
Sen. Humphrey's subcommittee, where DOL testified
that it opposed transferring the initial certification
function to INS because it would separate
"administration from certification." Hearings on
Migratory Labor – Part I, 82d Cong., at 51 (1952)
(testimony of Michael J. Galvin, Acting Secretary of
Labor). DOL claimed that it was the only agency
with the necessary skills and facilities, so assigning
those functions to the INS was "illogical." Id. DOL
also testified that it did not have the authority to
determine prevailing wages.
Id. at 77.
Sen.
Humphrey drafted a bill to accomplish DOL's
temporary foreign labor proposals, id. at 926, but
Humphrey's bill failed.
Even after the INA was adopted, President
Truman immediately convened a commission.
According to DOL, the INA needed to be amended to
require that DOL determine unavailability of U.S.
workers for unskilled positions. President's Comm’n
on Immigration & Naturalization, 82d Cong.,
Hearings before the President's Commission on
Immigration and Naturalization 1380, 1383 (1952)
(testimony of Robert Goodwin, DOL). This never
happened.
It is well-established that Congress created all
H visas, in part, to promote the national interests,
H.R. Rep. No. 82-1365, at 52 (1952); INS Comm'r
Argyle R. Mackey, The New Immigration and
Nationality Act and Regulations, 1 I.&N. Rptr. 29, 29
6

(Jan., 1953), and alleviate U.S. labor shortages for
temporary positions by providing nonimmigrant
alien labor, see H.R. Rep. 82-1365, at 44-45; INS,
Annual Report of the INS 31 (1953). The H-2B
program accomplishes these goals by balancing the
interests of employers and U.S. workers. See, e.g.,
A.F.L.-C.I.O. v. Dole, 923 F.2d 182, 187 (D.C. Cir.
1991).
Since 1952, Congress has endowed only the
DHS Secretary or his predecessors with exclusive
authority for "administration and enforcement" of
the INA, 8 U.S.C. §1103(a)(1), and rulemaking
authority over the admission of all aliens,
§1103(a)(3), including H-2B workers, §1184(a)(1).
DHS's Secretary alone is mandated to adjudicate all
individual H-2B petitions:
The question of importing any alien as a
nonimmigrant under subparagraph (H),
(L), (O), or (P)(i) of section 101(a)(15) … in
any specific case…shall be determined
by the [DHS Secretary], after consultation
with
appropriate
agencies
of
the
Government, upon petition of the
importing employer.
8 U.S.C. §1184(c)(1)(emphasis added). Since 1952,
Congress has never authorized DOL to promulgate
H-2B legislative rules or adjudicate labor
certifications. See id. (DHS's Secretary may consult
with unnamed federal agencies only when
determining the admission of temporary workers).
II. THE 2015 DOL RULE AND REGULATORY
HISTORY

7

DOL's longstanding position is that its
mandate under the H-2B program is to protect only
U.S. workers, 76 Fed. Reg. 37686, 67686, 37688
(June 28, 2011), at the expense of employers' and the
national interest, 77 Fed.Reg 10038, 10053 (Feb. 21,
2012).
Based on this longstanding view, DOL
finalized its 2012 regulations and expressly failed to
balance employer needs or the national interest. Id.
Because the 2012 DOL Rule was originally enjoined
and later vacated, DOL later incorporated the 2012
DOL Rule – and its failure to consider employer or
national interests – in bulk in the 2015 DOL Rule.
80 Fed. Reg. 24042, 24043 (Apr. 29, 2015)(the 2015
DOL Rule "is virtually identical to the 2012 final rule
that DOL developed following public notice and
comment ….").
The primary regulation at issue in this case is
the 2015 DOL Rule, which specifies how DOL issues
H-2B labor certifications. DOL never claimed in the
2015 DOL Rule that Congress extended rulemaking
or adjudicative functions to DOL by statute, even
though DOL conceded that DOL could not issue labor
certifications without rulemaking authority. 80 Fed.
Reg. at 24047, 24090. Rather, DOL's authority
citation was limited exclusively to DHS's regulations
at "8 C.F.R. §214.2(h)," id. at 24108, because DHS,
not Congress, "requires" DOL to provide
consultation "by issuing regulations," 81 Fed.Reg.
42983, 42984 n.1 (July 1, 2016).
III. TRIAL COURT PROCEEDINGS
This litigation was framed as a challenge to
DOL's rulemaking and adjudicative authority. The
trial court had jurisdiction under 28 U.S.C. §1331
8

and 5 U.S.C. §704. Before the trial court, the
Government waived any claim of implied or
independent
authority
for
rulemaking
or
adjudicative functions under the H-2B program.
ECF 113, Gov't Reply Brief at 32 (DOL's independent
authority to issue rules is simply not at issue in this
case); Tr. 27 ("DOL's independent rulemaking
authority is [not] at issue in this case.").
On cross-motions, the trial court entered
summary judgment for the Government on most of
the Government's theories of authority and upheld
the challenge regulations. See Outdoor Amusement
Bus. Ass'n, Inc. v. DHS, 334 F. Supp. 3d 697 (D. Md.
2018) (Appx, infra, at 46a).
The trial court
acknowledged that DOL's rulemaking authority was
a "close question."
334 F. Supp. 3d at 717.
Consistent with the Government's waiver, the trial
court apparently rejected any claim that DOL had
implied authority direct from Congress, see id.
(rejecting several Government claims of authority
without identifying them), and apparently ruled that
Congress had acquiesced in DOL's jurisdiction, id. at
717-20.
IV. APPELLATE COURT PROCEEDINGS
In pertinent part, the Fourth Circuit affirmed.
983 F.3d 671 (4th Cir. 2020) (Appx, infra, at 1a). The
Fourth Circuit determined that DOL had "implicit
rulemaking
authority"
that
was
"implicitly
delegated" from Congress to DOL because "Congress
made its intent clear that a consulting agency or
agencies chosen by Homeland Security would help
Homeland Security in considering petitions for H2B
visas." 983 F.3d at 684, 685 & 688 n. 10 (emphasis
9

added). In doing so, the Fourth Circuit relied upon
this Court's statement that implied authority "'can
still be apparent from the agency's generally
conferred
authority
and
other
statutory
circumstances that Congress would expect the
agency to be able to speak with the force of law when
it addresses ambiguity in the statute or fills a space
in the enacted law.'" Id. at 684 (quoting United
States v. Mead Corp., 533 U.S. 218, 229 (2001)).
Once DHS "designated [DOL] as the consulting
agency," DOL was accorded Chevron deference to fill
in gaps created by statutory ambiguity. Id. at 685.
The Fourth Circuit referenced the Petitioners'
arguments that a clear-statement rule required a
statute to identify selected agencies by name, and
the presumption that only one agency has authority
to promulgate rules under a statute. Id. at 686.
Even so, the Fourth Circuit conceded that "it is not
clear why having an unnamed agency with a
consulting role in H-2B would create problems." Id.
at 687 (emphasis added). See also id. at 688 ("it is
not clear why Labor, with Homeland Security's
blessing, cannot promulgate regulations"). After
sidestepping the clear-statement rule, the Fourth
Circuit identified three reasons why Congress had
selected DOL as a recipient of rulemaking authority.
First, the Fourth Circuit concluded that DOL was
expressly identified as a consultant for sister-H-2A
visas, and Congress expressly extended rulemaking
authority to DOL under the separate H-2A statute,
so "[s]urely" Congress extended the same authority
when DOL similarly "consulted" on H-2B petitions.
Id. at 687.
Second, DOL had issued H-2B labor
certifications and related rules "for decades …
without serious challenge from the political branches
10

or courts," so this was "at least some evidence that
Congress intended" that DOL had rulemaking
authority. Id. Finally, in at least one other statute
similar to the H-2A scheme, Congress had selected
an agency and identified it as a "consultant," and
then expressly extended to that agency explicit
rulemaking authority. Id. at 688. For these reasons,
the Fourth Circuit concluded that "not naming the
consulting agency provides Homeland Security with
more discretion and does nothing to show that
rulemaking authority was withheld from the
consulting agency." Id. at 687 (emphasis added).
The Fourth Circuit acknowledged that the
Eleventh Circuit had "rejected this implicit
delegation for Labor to rulemake based on its role as
a consulting agency." Id. at 688. In recognizing the
circuit split, the Fourth Circuit rejoined the Eleventh
Circuit's opinion by addressing whether DHS was
free to consult with any federal employee
whatsoever, but did not address any of the other,
numerous reasons adopted by the Eleventh Circuit.
See id.
REASONS FOR GRANTING THE PETITION
There is a square and acknowledged circuit
conflict whether Congress "implicit[ly] delegate[ed
authority] for Labor to rulemake based on its role as
a consulting agency." (Appx, infra, at 32-33a). This
issue is recurring and of great public importance.
More than 4000 employers continue to comply with
DOL's 2015 Program Rule and incur more than
$100,000,000 of compliance costs every year.
According to DOL, it cannot administer its H-2B

11

consultations without rulemaking and adjudicative
authority. 80 Fed. Reg. at 24047, 24090.
This case provides an ideal vehicle for
resolving the circuit conflict. The issue is squarely
presented. And the facts cast into stark relief the
consequences of allowing an agency that was never
selected as Congress's instrumentality to carry out
congressional policy. Here, the Department of Labor
admits that it is authorized only to consider the wellbeing of U.S. workers and that it is prohibited from
balancing the statute's competing goals of the needs
of U.S. employers and the interests of the nation.
DOL also benefits from Chevron deference without a
clear line of accountability as to which agency is
responsible for what. Further, there is no attempt to
fairly balance this visa program as occurs, for
example, under the H-2A statute, where Congress
imposes statutory deadlines and other due process
rights for H-2A employers. Also absent is the
moderating influence that Congress long expected
the Secretary of Homeland Security and his
predecessors would exert on this visa program
through their policymaking function. The petition
should be granted.
I. THE COURTS OF APPEALS ARE DIVIDED
OVER WHETHER §1184(c)(1) AUTHORIZES
THE SECRETARY OF LABOR TO ISSUE H-2B
LEGISLATIVE RULES AND ADJUDICATIONS
The INA never mentions whether the
Secretary of Labor has any role to play under the H2B visa program. There is an acknowledged circuit
split concerning whether Congress implicitly
authorized DOL's rulemaking and adjudications.
12

That conflict warrants this Court's review. See Sup.
Ct. R. 10(a).
The Eleventh Circuit was the first appellate
court to address the Secretary of Labor's
independent authority under the H-2B program.
Bayou Lawn & Landscape Servs. v. Secretary of
Labor, 713 F.3d 1080 (11th Cir. 2013). The Eleventh
Circuit incisively determined that Congress failed to
extend rulemaking "to DOL," and that this
"congressional silence" was out of keeping with
Chevron deference and likely the Constitution. Id. at
1084, 1085. As the Eleventh Circuit found, statutory
interpretation must comply with any conditions or
limitations placed by Congress. The statute provides
that DHS "determines," and all rulemaking and
adjudicative functions are solely extended to DHS.
For this reason, the court declined to find implicit
rulemaking power for DOL that Congress had
explicitly given to another agency. Id. at 1085 & n.
5.
For its part, DOL never appealed the Eleventh
Circuit decision, thereby accepting the ruling for
many years. Effectively, DOL moved on to a new
theory, which was based upon the absence of
independent authority and the need for "joint action"
with DHS.
See 80 Fed.Reg. at 24151 (DOL
acknowledged that the courts had determined that
DOL lacked independent rulemaking or adjudicative
authority).
The Fourth Circuit has now expressly rejected
the longstanding Eleventh Circuit and DOL's de
facto interpretation of §1184(c)(1). (Appx, infra, at
1a). The Fourth Circuit concluded that there was no
significance to the fact that DOL was not mentioned
in this INA provision. The Fourth Circuit concluded
13

that there was sufficient indication of congressional
intent because a different visa program and an
unrelated statute created consultative relationships
between agencies and then expressly delegated
rulemaking authority, so the same authority
"[s]urely" extends to DOL's consultations under
§1184(c)(1).
The Fourth Circuit also pointed out
that neither Congress nor the courts had "seriously
challenge[d]" DOL's H-2B labor certifications. The
Fourth Circuit minimized the Eleventh Circuit's
opinion as turning on the expressio unius principle.
The confusion surrounding this issue has
surfaced in other circuit court opinions. The Third
Circuit declined to decide whether DOL had implied
rulemaking authority, finding instead that DOL's
regulations were a condition precedent to DHS's
determinations. Louisiana Forestry Ass'n Inc. v. Secretary of
Labor, 745 F.3d 653, 674 (3d Cir. 2014). And the Tenth
Circuit similarly declined to decide whether DOL had
implied rulemaking authority, determining in a nonprecedential, unpublished opinion that DHS had
improperly redelegated authority to DOL. G.H. Daniels
III & Assocs., Inc. v. Perez, 626 F. App’x 205, 211-12 (10th
Cir. 2015).
II.
THE
FOURTH
CIRCUIT'S
INTERPRETATION
OF
§1184(c)(1)
AS
IMPLIEDLY AUTHORIZING THE SECRETARY
OF LABOR'S LEGISLATIVE RULES AND
ADJUDICATIONS IS INCORRECT
Any effort to read §1184(c)(1) as authorizing
the Secretary of Labor's rulemaking and
adjudications cannot be reconciled with §1184(c)(1)'s

14

text, the INA's broader statutory scheme, or this
Court's precedents.
A. The Text of §1184(c)(1) Does Not Authorize
the Secretary of Labor to Issue H-2B
Legislative Rules and Conduct Adjudications
Using
traditional
tools
of
statutory
construction, the correct question is whether
Congress in 1952, intended to delegate governmental
functions to DOL. See Utility Air Regulatory Group
v. Environmental Protection Agency, 134 S. Ct. 2437,
2444 (2014). The Fourth Circuit mis-framed the its
interpretation of §1184(c)(1) by focusing on DOL's
actions taken decades later rather than focusing on
the meaning of the statute when enacted in 1952.
Statutory construction begins with the
statutory text.
The text of §1184(c)(1) is
straightforward – it allows the Secretary of
Homeland Security to "consult" with unnamed
agencies. Nowhere does it purport to grant to the
Secretary of Labor any power whatsoever under the
H-2B program. That should be dispositive: "When
the words of the statute are unambiguous," the
"'judicial inquiry is complete.'" Connecticut Nat'l
Bank v. Germain, 503 U.S. 249, 254 (1992).
In context, §1184(c)(1) is an adjudicative
clause.
Congress's indispensable act under
§1184(c)(1) is that DHS, and only DHS, must
"determine" all H-2B petitions. When the INA was
enacted,
"determine" meant "to bring to a
conclusion, to settle by authoritative sentence, to
decide, … to adjudicate on an issue presented,"
Black’s Law Dictionary 536 (4th ed. 1951), and "come
to a conclusion, give decision; be the decisive factor
15

with regard to," The Concise Oxford Dictionary 327
(4th ed. 1951). Read in context, DHS's mandatory,
jurisdictional responsibility is to be the “decisive
factor”
in
deciding
every
H-2B
petition.
"Consultation" meant the act of "[t]ak[ing] counsel
…; seek[ing] information or advice from." Id. at 257.
Accord G.H. Daniels, 626 F. App’x at 211. DHS's
longstanding interpretation similarly recognized that
DOL's consultations were advisory only. See, e.g.,
111 Cong. Rec. 21805, 21805, 21806 (Aug. 25, 1965)
(unsuccessful floor amendment to require the INS to
abide by DOL's H-2 "opinion"). Thus, Congress
intended a consultation as an adjunct to DHS's final
decisionmaking, but it did not authorize the
consultant to make a final decision, nor was it a
substitute for DHS serving as the "decisive factor"
when adjudicating individual H-2B petitions.
Conversely, §1184(c)(1) is not a rulemaking
provision. There is no statutory text in which
Congress indicated that any outside agency had any
role to play as a consultant or otherwise in DHS's H2B rulemaking. Construing the term "consultation"
in §1184(c)(1) as a grant of rulemaking authority
renders meaningless the limits that Congress
imposed through its use of that term.
B. Allowing the Secretary of Labor to Issue H2B
Legislative
Rules
and
Conduct
Adjudications Defies the INA's Statutory
Scheme
The rest of the statute corroborates that
Congress spoke clearly when it reposed all
governmental authority on DHS alone. See Brown v.
Gardner, 513 U.S. 115, 118 (1994) ("Ambiguity is a
16

creature not of definitional possibilities but of
statutory context.").
The contrary reading of
§1184(c)(1) makes hash of the overall statutory
scheme, rendering express provisions redundant and
statutory protections impotent. Congress did not
equip DOL with the tools to regulate the H-2B
program because Congress had no intent for DOL to
regulate the H-2B program.
It is also "highly
unlikely" that Congress would have made DOL a
final decisionmaker through the "subtle device" and
"cryptic" way of a consultation clause. See Food &
Drug Admin. v. Brown & Williamson Tobacco Corp.,
529 U.S. 120, 160 (2000) (elephant-in-a-mouse-hole
doctrine).
a. Adjudicative Clause. The adjudicative
clause in §1184(c)(1) instructs DHS to determine
"any specific" H-2B petitions, but DHS does not
under the 2015 DOL Role. Under the Government's
view, see J.A. 209 n.11, DOL, not DHS, alone makes
a binding determination of (1) the availability and (2)
capability of U.S. workers, and the Department of
State alone determines (3) immigrant intent via 8
U.S.C. §1184(b). Even in the case of the final
statutory component, (4) temporary need, DOL still
exercises final decisionmaking if it denies an
application and thus DHS has, at most, "shared"
jurisdiction. See 73 Fed.Reg. 78104, 78108 (Dec. 19,
2008). Far from being Congress's "decisive factor,"
DHS is barely an afterthought. The Eleventh Circuit
declined to extend rulemaking power to DOL
precisely because the statute provides that DHS
"determines," and Congress gave all rulemaking and
adjudicative functions solely to another agency,
DHS. See Bayou Lawn, 713 F.3d at 1085 & n. 5.
The Fourth Circuit's decision that DOL now
17

"determine[s]," 983 F.3d at 689, flatly contradicts
§1184(c)(1) that DHS alone possesses that authority.
DOL, a mere consultant, has now grabbed a veto
power over the action agency.
The Government minimizes DHS's failure to
determine "any specific" H-2B petition by suggesting
that DHS could do so prospectively by mandating
that employers obtain favorable labor certifications.
This argument generates another structural conflict
because §1184(c)(1) mandates DHS's determination
"after" any consultation, and "upon petition of the
importing employer," but that never happens
because DHS does not review consultants' H-2B
decisions.
Another structural conflict is that Congress
designated H-2B eligibility as a fact issue, but DHS
has disposed of it with a conclusive presumption that
DOL's determination is final with no further
recourse to DHS’s adjudication. See Miller v. United
States, 294 U.S. 435, 440 (1935) (agency improperly
eliminated mandatory factfinding with a conclusive
presumption); Ragsdale v. Wolverine World Wide,
Inc., 535 U.S. 81, 91 (2002) (the remedy created by
Congress required case-by-case examination, but
agency's rule eliminated that factual inquiry).
Another structural conflict is that §1184(c)(1)
grouped H-2B with 7 other employment-based visas,
thereby suggesting similar governmental functions.
However, Congress declined any DOL role for L, O,
and P visas, 20 C.F.R. §656.2(c)(3), while choosing
minimalist labor attestations or labor applications
for H-1B, H-1B1, and H-1C, id. §655.731-.732,
655.1112(c)(2), and labor certifications with
rulemaking for H-2A, id. §655.161(a). Congress has a
long
history
of
judiciously
choosing
its
18

instrumentalities, yet has steadfastly refused to do
the same for the H-2B program for nearly 70 years.
b. Other Visas. Other visas are similarly
stratified.
Congress has subjected only PERM
immigrants to full-blown labor certifications,
discussed below, with minimalist labor attestations
or labor applications for D and E-3, §§655.510(d),
655.731-.732, and declining to delegate any DOL
authority for Q and R visas, §656.2(c)(3).
DOL as final decisionmaker also conflicts with
the role Congress carefully circumscribed for labor
certifications.
Under the INA, "any" alien –
including H-2B workers – performing unskilled labor
is
inadmissible
unless
DOL
"determines"
availabililty and adverse effect on the employment
market. 8 U.S.C. §1182(a)(5)(A)(i). However, this
requirement does not apply to H-2B workers because
of a (1) limitation to designated immigrant visas
(PERM or green cards), id. §1182(a)(5)(D), and (2)
general exception whenever admission is "otherwise
provided in this Act," id. §1182(a). Making DOL's H2B labor certifications as final action ignores both
the limitation and the exception of PERM labor
certifications. Having "textually committed"1 when
labor certifications are used, see Whitman v.
American Trucking Ass'n, Inc., 531 U.S. 457, 472
(2001), the Government cannot create an exception.
c. Other INA Clauses. Another structural
conflict concerns revenue and reporting under the
comprehensive INA. The INA grants DHS the power
The Fourth Circuit failed to appreciate the critical distinction
between issues that Congress has "textually committed" to another
agency and the reach of the expressio unius maxim. Accord Gonzales
v. Oregon, 546 U.S. 243, 260 (2006).
1

19

to generate fees for adjudicating petitions, 8 U.S.C.
§1356(m), (t)&(u), but DOL has no such funding
source for H-2B labor certifications, but it does
charge for H-2A labor certifications, §1188(a)(2) &
(g). DOL must file periodic reports to Congress for
other activities, §1381, but no such requirement
exists for the H-2B program.
d. Congressional Policies. As discussed
supra, another structural conflict is DOL's
longstanding position that its mandate is to protect
only U.S. workers, at the expense of employers' and
the national interest. The 2015 DOL Rule expressly
failed to balance employer needs or the national
interest.
Another structural conflict is that Congress'
decision to put DHS in charge was the result of a
political compromise to hold DHS politically
accountable.
DOL has subverted that careful
balance by intervening. See Ragsdale, 535 U.S. at
94.
The 2015 DOL Rule also conflicts with
congressional policy as articulated by Congress's
selected policymaker, DHS. First, for 60 years, DHS
has called for DOL's "advice," 8 C.F.R.
§214.2(h)(6)(iii)(A), including in the very regulations
at issue, 80 Fed. Reg. at 24043, 24045. Obviously,
DOL is no longer "consulting" when it is codetermining H-2B visas. One important study of the
statutory phrase "in consultation with" concluded
that it obviously conveyed that one agency was
primary. Abbe R. Gluck & Lisa Schultz Bressman,
Statutory Interpretation From the Inside – An
Empirical Study of Congressional Drafting,
Delegation, and the Canons: Part I, 65 Stan. L. Rev.
901, 1007 (2013). The study further identified 201
20

cases interpreting "in consultation with" in various
statutes, not a single one of which had ever
questioned which agency was primary. Id. at 1009 n.
419. Second, the fact that DHS is attempting to
channel DOL's discretion in the 2015 DOL Rule as a
purported congressional delegatee undercuts any
plausible claim to independent authority.
For more than a century, the courts have
uniformly construed "consultation" within the
several immigration statutes to require the primary
agency to make the determination.
Billings v.
Sitner, 228 F. 315, 317-19 (1st Cir. 1915)
(immigration board improperly regarded medical
certificate as final and "controlling" on issue of
feeble-mindedness and failed to consider other
evidence and determine the issue by reviewing it and
making its "own judgment"); Secretary of Labor v.
Farino, 490 F.2d 885, 891-92 (7th Cir. 1973)(DOL
itself could not rely on state workforce agencies to
determine unavailability of U.S. workers without
extending to employers the opportunity to submit
rebuttal evidence).
Even this Court has determined that a
"consultant's" role is so limited that Chevron
deference is not warranted, Gonzales, 546 U.S. at
265, and consulting does not entail rulemaking
authority, id. at 262. All of this has now apparently
changed, at least in the Fourth Circuit.2
To be sure, the Fourth Circuit noted two statutes in which
Congress extended to putative "consultants" certain
governmental functions.
Congress is free to combine a
consultation with a requirement for concurrence, approval, or
joint action. Jody Freeman & Jim Rossi, Agency Coordination
and Shared Regulatory Space, 125 Harv. L. Rev. 1131, 1157-60
(2012).
For example, Congress provided very detailed
2

21

C. The Fourth Circuit's Interpretation of
§1184(c)(1) Is Precluded by Canons, ClearStatement Rules and Presumptions
Other than a cursory reference to Petitioners'
argument, the Fourth Circuit failed to confront
Chevron Step Zero – the initial inquiry whether the
Chevron rules even apply. See Sunstein, Chevron
Step Zero, 92 Va. L. Rev. 187, 191 (2006). This Court
has frequently established a preliminary inquiry to
determine Chevron's application and which takes
precedence over the agency's views of ambiguity.
This assortment of canons, clear-statement rules,
and presumptions protect substantive values in
statutes or the Constitution.
1.
Constitutional-Avoidance Doctrine.
Agencies may not interpret statutes in ways that
raise serious constitutional doubts.
If multiple
statutory interpretations are "fairly possible" and the
constitutional question is serious and substantial,
then Congress must decide the issue in an explicit
statement. See Rust v. Sullivan, 500 U.S. 173, 191
(1991). Thus, the constitutional-avoidance doctrine
displaces Chevron deference. See DeBartolo Corp. v.
Florida Gulf Coast Bldg. Council, 485 U.S. 568, 575
(1988).
The constitutional-avoidance doctrine applies
to nondelegation issues. See Industrial Union Dep't
provisions to govern the "consultant" in Bennett v. Spear, 520
U.S. 154 (1997), but the action agency was still free to accept or
reject the advice. Suffice to say, Congress made no such
provisions for the simple "consultation" clause in §1184(c)(1),
but DHS's own regulations leave it no longer free to accept or
reject DOL's "advice."

22

v. American Petroleum Inst., 448 U.S. 607, 646
(1980). The nondelegation doctrine is based upon the
delegation clause, U.S. Const. art. I, §1, the
separation-of-powers principle, Mistretta v. United
States, 488 U.S. 361, 371 (1989), and due process,
Washington v. Roberge, 278 U.S. 116, 122-23 (1928).
The nondelegation doctrine preserves accountability
and forces Congress to make hard choices. See
Bressman, Schechter Poultry at the Millennium: A
Delegation Doctrine for the Administrative State, 109
Yale L.J. 1399, 1416-17 (2000). Thus, an agency
literally has no power to act unless Congress confers
it. Louisiana Pub. Serv. Comm'n v. FCC, 476 U.S.
355, 374 (1986).
"It is axiomatic that an
administrative agency’s power to promulgate
legislative regulations is limited to the authority
delegated by Congress.” Bowen v. Georgetown Univ.
Hosp., 488 U.S. 204, 208 (1988). The nondelegation
doctrine continues to have constitutional force.
Whitman, 531 U.S. at 472.
To delegate governmental functions to DOL,
the unlawful delegation doctrine requires Congress
to:
1.
Delineate a policy for DOL to
administer. South Carolina Med. Ass'n v.
Thompson, 327 F.3d 346, 351 (4th Cir.
2003)(no constitutional challenge in part
because Congress delineated the agency
charged with applying the policy).
2. Select DOL as its "instrumentalit[y]"
to carry out the congressional policy.
Schechter Poultry Corp. v. United States, 295
U.S. 495, 530 (1935); see also Gonzales v.
Oregon, 546 U.S. 243, 258 (2006)(Congress
must delegate "to the official"). Congress
23

makes such a selection by committing the
issue to the agency's care "by statute."
Chevron U.S.A., Inc. v. Natural Resources
Defense Council, Inc., 467 U.S. 837, 845 (1984)
(emphasis added).
3. Set boundaries on DOL's authority.
Schechter, 295 U.S. at 530.
4.
Set an intelligible principle or
standard for measuring DOL's conformance to
the statute. Whitman, 531 U.S. at 472.
Here, a serious constitutional question arises
because Congress did none of these things and
exerted even less control than it did with the
unconstitutional statute in Schechter. Certainly,
Congress failed to select DOL "by statute," so the fact
that DOL was unnamed is fatal to any claim of
Chevron deference. And the fact that the Fourth
Circuit acknowledged that DOL had no authority
until chosen by DHS's Secretary, 983 F.3d at 685,
underscores that the statute alone granted no such
authority.
The
Government has previously
admitted that Congress did not select nor direct DOL
to conform to any standard. J.A. 222. Rather than
confront this serious constitutional issue, this Court
uses the constitutional-avoidance canon as surrogate
for the nondelegation doctrine. Bressman, 109 Yale
L.J. at 1409-11. In this instance, the Court avoids
the serious constitutional question by construing the
statute to determine that DOL lacks rulemaking and
adjudicative functions in the H-2B program.
Instead of Congress making the necessary
choice, the Fourth Circuit vested the choice of
instrumentalities solely in DHS's Secretary. 983
F.3d at 685 (DHS's decision "that the petitions must
include an approved labor certification … imposed a
24

duty on Labor as the consulting agency to administer
the grant of those certifications.") This compounded
the constitutional issue and reinforced the absence of
a clear statement from Congress. See Whitman v.
American Trucking Ass’ns, 531 U.S. 457, 472 (2001)
("an agency can [not] cure an unlawful delegation of
legislative power by adopting in its discretion a
limiting construction of the statute."). "The very
choice of which portion of the power to exercise –
that is to say, the prescription of the standard that
Congress had omitted – would itself be an exercise of
the forbidden legislative authority." Id. at 473
(emphasis in original).
Another constitutional principle derived from
sound separation-of-powers principles is the Chenery
doctrine, under which a rule may be upheld only on
the agency's basis provided in the record when
adopted. Securities & Exch. Comm'n v. Chenery
Corp., 318 U.S. 80, 87-89, 94-95 (1943). Accord
Encino Motorcars, LLC v. Navarro, 136 S. Ct. 2117,
2125 (2016). In short, neither the Government nor
this Court can raise belated theories or hypothesize
how the Government's position might be sustained,
and it violates separation of powers to do so. See
Stack, The Constitutional Foundations of Chenery,
116 Yale L.J. 952, 992, 996-97 (2007)(Chenery
doctrine bolsters due process and the nondelegation
doctrine's anti-inherency principle by ensuring that
agencies ground their action in congressional
authority). As shown supra, DOL did not claim
implied
rulemaking
authority
during
the
rulemaking, and even abandoned it before the trial
court. Positions raised during litigation are not the
result of an agency's delegated power, Martin v.
Occupational Safety & Health Review Comm'n, 499
25

U.S. 144, 156-57 (1991), and are entitled to "near
indifference," United States v. Mead, 533 U.S. 218,
228 (2001). Further, DOL's naked authority citation
to DHS's regulation found at 8 C.F.R. §214.2(h)
plainly shows that the 2015 DOL Rule was not based
on an implied delegation of congressional authority.
2. Clear-Statement Rule. Clear-statement
rules ensure Congress considered and chose the
fundamental policy. A clear-statement rule means
that there is no Chevron ambiguity for the agency to
interpret, INS v. St. Cyr. 533 U.S. 289, 320 n.
45(2001), and it trumps the agency's interpretation
of any statutory ambiguity, see EEOC v. Arabian
Am. Oil Co., 499 U.S. 244, 250, 258 (2001). See also
Sunstein, Nondelegation Canons, 67 U. Chi. L. Rev.
315, 339 (2000) (under clear-statement rules, there is
nothing to lament because Congress was unable to
muster the will to authorize the agency action).
Congress's
responsibility
to
select
instrumentalities raises a clear-statement rule. The
Government must show that Congress "clearly"
delineated DOL as the responsible agency.
Mistretta, 488 U.S. at 372-73. Accord S.C. Med., 327
F.3d at 350. In this case, given that Congress did not
designate DOL at all, it certainly did not designate
DOL "clearly." See Morrison v. National Australia
Bank Ltd., 561 U.S. 247, 255 (2010)(when the statute
gives no clear indication, there is none)(clearstatement rule relieves the court of giving effect to
all indicia of intent). Thus, contrary to the Fourth
Circuit, the fact that DOL is unnamed is fatal to its
claim for rulemaking and adjudicative authority.
The Fourth Circuit's search for indicia of
congressional intent was incorrect.

26

3.
Major-Question Doctrine.
Some
decisions are so important that they must be made
by Congress, thereby denying agencies the power to
interpret ambiguity for large-scale statutory
changes. Under the major-question doctrine, issues
addressed to a central aspect or "essential
characteristic" of the statute that fundamentally
expand or contract the statute are not within an
agency's authority and are subjected to independent
judicial review. MCI Telecomm S. Corp. v. AT&T
Co., 512 U.S. 218, 231 (1991); Whitman 531 U.S. at
468. This promotes accountability and integrity of
the democratic process. Schoenbrod, Power Without
Responsibility: How Congress Abuses the People
Through Delegation 9 (1993)(delegation allows
Congress to maintain power without accountability).
Here, the extent to which and by whom the national
interests
are
protected
under
8
U.S.C.
§1101(a)(15)(H)(ii)(b) and was such a major question.
See Texas v. United States, 809 F.3d 134, 180-81 (5th
Cir. 2015)(INA's employment-authorization scheme
was a major question), aff'd by equally divided court,
136 S. Ct. 2271 (2016) (per curiam).
The major-question doctrine also gives rise to
another clear-statement rule. "For an agency to
issue a major rule, Congress must clearly authorize
the agency to do so. If a statute only ambiguously
supplies authority for the major rule, the rule is
unlawful." U.S. Telecom Ass'n v. FCC, 855 F.3d 381,
419 (D.C. Cir. 2017)(Kavanaugh, J., dissenting)
(emphasis in original). When Congress has debated
but declined to pass legislation creating authority,
that inaction "does not license the Executive Branch
to take matters into its own hands." Id. at 426. The
2015 DOL Rule was such a major rule, and we
27

discussed supra that Congress extensively debated
the issue and failed to legislate.
4. Presumptions. Under the doctrine of
"exclusive jurisdiction," Congress is presumed to
delegate all pertinent authority to a single agency.
Union Pac. R.R. Co. v. Surface Transp. Bd., 863 F.3d
816, 826 (8th Cir. 2017)(it is unlikely that Congress
gave the same authority to 2 agencies to develop
conflicting rules); Gersen, Overlapping and
Underlapping Jurisdiction in Administrative Law,
2006 S. Ct. Rev. 201, 222-25. The INA further
supports this unitary-agency model.
8 U.S.C.
§1103(a)(1) (DHS has all INA administrative
functions unless Congress itself has conferred it on
other officials).
Moreover, the Constitution's
presumption is that congressional power not
expressly conferred on an agency is denied to it.
American Bus Ass'n v. Slater, 231 F.3d 1, 9 (D.C. Cir.
2000)(Sentelle, J., concurring). And, there is no
implied governmental functions when Congress
expressly gave that authority elsewhere. Union, 863
F.3d at 823. In this case, there is no evidence that
Congress "textually committed" this authority to
DOL after giving it to DHS. See Whitman, 531 U.S.
at 468.
Further, even the Fourth Circuit's primary
authority indicates that Chevron deference is lost if
there is any "doubt" whether Congress delegated to
the agency. United States v. Mead Corp., 533 U.S.
218, 230 (2001). Surely there is doubt whether
Congress intended 2 agencies to regulate the same
subject matter.
D. Mead Cannot Sustain the Fourth Circuit's
Interpretation of §1184(c)(1)
28

The Fourth Circuit primarily relied on dicta in
this Court's Mead decision that implied authority
may be apparent because of "'generally conferred
authority and other statutory circumstances that
Congress would expect the agency to be able to speak
with the force of law when it addresses ambiguity in
the statute ….'" Id. at 684 (quoting United States v.
Mead Corp., 533 U.S. 218, 229 (2001)).
Mead
involved case-specific tariff rulings and is readily
distinguishable.
To start, the issue of DOL's authority had to
be resolved first, see Gonzales v. Oregon, 546 U.S.
243, 258 (2006), before the Fourth Circuit could
determine that DOL's rulemaking was "necessary,"
983 F.3d at 686. This did not happen.
Second, Mead does not apply to the facts
presented in this case. The problem, once again, is
that Congress – as opposed to DHS – had not
extended any administrative responsibility through
"generally conferred authority" to DOL. See Mead,
533 U.S. at 226-28 (the agency must be charged by
Congress to administer the statute); City of Arlington
v. FCC, 569 U.S. 290, 308 (2013) (same). All
statutory provisions were expressly extended to
DHS.
See 8 U.S.C. §§1101(a)(15)(H)(ii)(b),
1103(a)(1), 1184(c)(1). In Mead, the agency already
had rulemaking authority and a generalized
"administrative power," and the issue was whether
that was good enough to imply power in another
area. The Mead dicta was in turn based upon dicta
in Chevron discussing implied delegations "to an
agency on a particular question" that it was
"entrusted to administer." Chevron, 467 U.S. at ___.
In this case, DOL lacked any predicate "generally
29

conferred authority" from which to imply other
powers.
Third, DOL never established the necessity for
the implicit power. See PennEast Pipeline Co., LLC
v. New Jersey, No. 19-1039, slip op. at *18 (Sup. Ct.
June 29, 2021) ("'[J]ust as permission to harvest the
wheat on one's land implies permission to enter on
the land for that purpose,' … so too does
authorization to take property interests imply a
means through which those interests can be
peaceably transferred. An eminent domain power
that is incapable of being exercised amounts to no
eminent domain power at all.") (emphasis added)
(quoting Antonin Scalia & Bryan Garner, Reading
Law 192 (2012)). DOL consulted for decades without
H-2B legislative rules.
Fourth, contrary to Mead, Congress did not
expect DOL to act with the "force of law." To do so,
DOL had to act in Congress's stead and balance the
competing policy interests. A.T. Massey Coal Co. v.
Holland, 472 F.3d 148, 166-67 (4th Cir. 2006). As
shown supra, the purpose of the H-2 visa is to
balance the interests of employers in an adequate
workforce and protection of U.S. workers. DOL
contends that its longstanding mandate is to protect
only U.S. workers, 76 Fed. Reg. 37686, 67686, 37688
(June 28, 2011), at the expense of employers' and the
national interest, 77 Fed.Reg 10038, 10053 (Feb. 21,
2012).
Based on this longstanding view, DOL
finalized its 2012 Rule and then incorporated them
in bulk in the 2015 DOL Rule. 80 Fed. Reg. at 24043
(the 2015 DOL Rule "is virtually identical to the
2012 final rule that DOL developed following public
notice and comment ….").
Because DOL has
disqualified itself from balancing the competing
30

interests, DOL's actions negate the stated purpose of
the statute and lack the force of law and any implied
authority. See King v. Burwell, 135 S. Ct. 2480,
2492-93 (2015). The failure to weigh competing
policies or to maintain the "structural compromise"
in the statute also means that Chevron deference is
lost. Massey, 472 F.3d at 166 & 168.
And a word about the Fourth Circuit's claim
that Congress never "seriously challenged" DOL's
rulemaking, and that this was some indicia of
congressional intent. The Fourth Circuit did not
make a case for congressional acquiescence. It cited
no congressional actions that have "altered the
meaning" of the operative statutory terms of
§1184(c)(1), see SCA Hygiene Prods. Aktiebolag v.
First Quality Baby Prods., LLC, 137 S. Ct. 954, 96667 (2017), nor any "overwhelming evidence of
acquiescence" before replacing "plain text and
original understanding of the statute with an
amended agency interpretation," see Rapanos v.
United States, 547 U.S. 715, 750 (2006)
(plurality)(quoting SWANCC v. U.S. Army Corps of
Eng’rs, 531 U.S. 159, 169–70 n.5 (2001)). See also
Alexander v. Sandoval, 532 U.S. 275, 292 (2001)
("isolated amendments" are "impossible" to interpret
as "congressional approval" of prior court
interpretations).
E. The Erroneous Departure from §1184(c)(1)'s
Text Has Spawned Additional Circuit Conflicts
The circuit courts have diverged sharply on
the issue of DOL's H-2B authority, and this
underscores why certiorari is important to remove
the confusion. No court other than the Fourth
31

Circuit has ever determined that DOL has implied
rulemaking authority and no court other than the
Fourth Circuit has ever found rulemaking authority
in a consultation relationship, even though there
have been multiple decisions posing the question
under the INA alone. In other words, when Congress
expressly charged DHS with the relevant
determinations, only the Fourth Circuit has
concluded that Congress meant another agency
entirely would make those determinations.
In addition to the immediate conflict
concerning implied rulemaking, confusion reigns
because other circuits have taken different
approaches. The Third Circuit declined to rule on
the issue of DOL's authority. Instead, it ruled that
DHS could properly require labor certifications as a
condition precedent. In so doing, the Third Circuit
failed to address the justification for DOL's own
rulemaking. Louisiana Forestry Ass'n Inc. v. Secretary of
Labor, 745 F.3d 653, 674 (3d Cir. 2014). DOL reinforced
this view the following year by expressly positing the
citation authority for the 2015 DOL Rule on DHS's
regulations, thereby compounding the error that
Congress was not involved.
The Tenth Circuit took a completely different
approach. It also declined to rule on the issue of
DOL's rulemaking authority. Instead, it ruled that
DHS's selection of DOL as a "consultant," along with
DHS's regulations requiring DOL to promulgate its
own rulemaking (a fact that the Fourth Circuit chose
not to mention), constituted an impermissible
redelegation of authority from DHS to DOL. G.H.
Daniels III & Assocs., Inc. v. Perez, 626 F. App’x 205, 211-12
(10th Cir. 2015). DOL compounded the confusion by
taking no action in response to that ruling.
32

At root, all of these different approaches have
been spawned by failing to construe §1184(c)(1)
properly. Until this Court speaks, it is expected that
other circuits will rely on their own individual
approaches.
III.
THE ISSUE
RECURRING

IS

IMPORTANT

AND

The issue of the Secretary of Labor's
independent rulemaking and adjudicative authority
is recurring and of great public interest. More than
4000 employers participate in the H-2B program
each year, and DOL has estimated their costs to
comply with its regulations are $1.2 billion over 10
years, 80 Fed. Reg. 24042, 24105, 24180-81 (Apr. 29,
2015), or more than $30,000 per day.
As discussed supra, DOL's rulemaking
authority has generated four circuit court decisions,
which have diverged in significant ways and
generated confusion. Trial court decisions addressed
to the issue have included Alpha Servs., LLC v.
Perez, 2014 U.S. Dist. Lexis 152454 (S.D. Miss. Oct.
23, 2014); Bayou Lawn & Landscape Servs. v. Solis,
No. 3:11cv445 (N.D. Fla. Sept. 26, 2011); Bayou
Lawn & Landscape Servs. v. Solis, No. 3:12cv183
(N.D. Fla. Apr. 26, 2012).
DOL has long recognized that its authority was in
question. Despite the unsettled nature of its authority,
DOL has seized upon the Fourth Circuit's decision to
support its view that it has unquestioned authority. 86
Fed. Reg. 28198, 28202 nn. 25-26 (May 25, 2021). This
has allowed DOL to take a more aggressive administrative
and enforcement posture.

33

When the H-2 program began in 1952, no one
contemplated that DOL would play a significant, much
less dominant, role. Now, the H-2B program is riddled
with profound uncertainty.
 Whose regulations appear at Subpart A, 20
C.F.R. §655? The Code of Federal Regulations
indicates they are DOL's regulations, but the
Government has contended at various points
that they are DOL's, DHS's, or both.
 By what authority were the regulations
promulgated? Congress bestowed no such
authority on DOL, but the Government has
contended at times that Congress, DHS, or
both authorized them.
 Can DHS promulgate regulations and compel
another agency to implement and publish
them? Congress gave DHS the option to
consult, not conscript.
 Does the "jointly-issued" 2015 DOL Rule
retain any significance after the Fourth
Circuit's decision?
 Will DOL seek to revise the H-2B regulations
for the 17th time since 2008? See 73 Fed. Reg.
29942 (May 22, 2008)(DOL's NPRM); 73 Fed.
Reg. 78020 (Dec. 19, 2008)(DOL's final rule);
75 Fed. Reg. 61578 (Oct. 5, 2010(DOL's
NPRM); 76 Fed. Reg. 3452 (Jan. 19, 2011)
(DOL's final rule); 76 Fed. Reg. 15130 (Mar.
18, 2011)(DOL's NPRM); 76 Fed. Reg. 21036
(Apr. 14, 2011) (DOL amended processing
form); 76 Fed. Reg. 45667 (Aug. 1, 2011)(DOL
final rule); 76 Fed. Reg. 59896 (Sept. 28, 2011)
(DOL final rule); 76 Fed. Reg. 73508 (Nov. 29,
2011) (DOL final rule); 76 Fed. Reg. 82115
(Dec. 30, 2011); 77 Fed. Reg. 10038 (Feb. 21,
34

2012)(DOL final rule); 78 Fed. Reg. 24047
(Apr. 24, 2013)(DOL interim final rule); 78
Fed. Reg. 53643 (Aug. 30, 2013) (DOL final
rule); 79 Fed. Reg. 75179 (Dec. 17, 2014) (DOL
notice of declaratory order); 80 Fed. Reg.
24042 (Apr. 29, 2015)(DOL interim final rule);
84 Fed. Reg. 62431 (Nov. 15, 2019)(DOL final
rule).
 Which agency is primary for administering the
H-2B program?
Importantly, according to DOL, it cannot
administer
its
H-2B
consultations
without
rulemaking and adjudicative authority. 80 Fed. Reg.
at 24047, 24090.
The importance of the question presented,
moreover, extends beyond the DOL and the INA.
There are 105 consultative relationships in the INA
alone, and thousands of other consultative
relationships throughout the U.S. Code. The Fourth
Circuit's decision will give those regulators and
regulatees pause to consider whether their
relationships must be reinvented, as well. Resolving
the question presented in this case will shed light on
the propriety of numerous other enforcement
regimes.
IV.
THIS CASE PRESENTS AN IDEAL
VEHICLE FOR RESOLVING THE CONFLICT
This case provides an ideal vehicle for
resolving the circuit conflict. The issue is squarely
presented. Whether §1184(c)(1) impliedly authorizes
DOL's rulemaking was both "pressed" by Petitioners
and "passed on" by the Fourth Circuit. See Verizon
Communications Inc. v. FCC, 535 U.S. 467, 530
35

(2002).
And there are no "logically antecedent
questions that could prevent [the Court] from
reaching the question of the correct interpretation" of
§1184(c)(1). See Unite Here Local 355 v. Mulhall,
571 U.S. 83, 85 (2013).
This case, moreover, casts the real-world
consequences of the issue into stark relief.
Petitioners include 2 trade groups representing a
majority of H-2B employers. Those members have
incurred hundreds of millions of dollars in
compliance costs during the pendency of this case.
The case also demonstrates the consequences
of allowing DOL to regulate the H-2B program. By
DOL's
own
calculations,
compliance
costs
skyrocketed.
When the compliance costs are
distributed among the user pool of more than 4000,
the average employer incurs about $30,000 per year
just to participate, a princely sum for the small
businesses engaged in the program – and that is
before payroll and other business expenses. Under
the Fourth Circuit's decision, DOL also benefits from
Chevron deference without a clear line of
accountability as to which agency is responsible for
what. Further, there is no attempt to fairly balance
this visa program. For example, under the H-2A
statute, Congress imposes statutory deadlines and
other due process rights for H-2A employers. See,
e.g., 8 U.S.C. §§ 1188(b)(2)(B)(limitation on
debarment); (c)(multiple deadlines for DOL
processing of H-2A applications); (d)(1)(joint filings
through agricultural associations); (e)(expedited
administrative appeals).
Also absent is the
moderating influence that Congress long expected
the Secretary of Homeland Security and his

36

predecessors would exert on this visa program
through their policymaking function.
Equally pernicious are the consequences of
allowing an agency that was never selected as
Congress's instrumentality to carry out congressional
policy. Here, DOL admits that it is unauthorized to
consider the interests of Petitioners when
promulgating regulations, as well as the national
interest.
As a result, DOL is prohibited from
balancing the statute's competing goals.
This Court should grant the petition for a writ
of certiorari and resolve the circuit split over the
proper interpretation of §1184(c)(1).
CONCLUSION
The petition should be granted.
R. Wayne Pierce, Esq.

Leon R. Sequeira, Esq.

The Pierce Law Firm, LLC
133 Defense Hwy, Suite 201
Annapolis, Maryland 21401
410-573-9955
wpierce@adventurelaw.com

Counsel of Record
616 South Adams Street
Arlington, Virginia 22204
(202) 255-9023
lsequeira@lrs-law.com

Counsel for Petitioners
July 16, 2021

37

